OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/WEST BANK
AND GAZA’S EMERGENCY
JOBS PROGRAM

AUDIT REPORT NO. 6-294-11-001-P 

OCTOBER 13, 2010 





CAIRO, EGYPT

Office of Inspector General


October 13, 2010

MEMORANDUM

TO:                 USAID/West Bank and Gaza Director, Michael T. Harvey

FROM:               Regional Inspector General/Cairo, Jacqueline Bell /s/

SUBJECT:            Audit of USAID/West Bank and Gaza’s Emergency Jobs Program (Report No. 6-
                    294-11-001-P)

This memorandum transmits our final report on the subject audit. We have considered your
comments on the draft report and have included your response in Appendix II.

The audit report contained no recommendations, and there is no additional action required by
your office to address the report’s findings. 


Thank you for the cooperation and courtesy extended to the audit team during this audit.





U.S. Agency for International
Development
USAID Office Building
Plot 1/A Off Ellaselki Street
New Maadi
Cairo, Egypt
www.usaid.gov
CONTENTS

Summary of Results ................................................................................................. 1 



Audit Findings ........................................................................................................... 3 



Evaluation of Management Comments ................................................................. 10 



Appendix I – Scope and Methodology .................................................................. 11 



Appendix II – Management Comments ................................................................. 13 

SUMMARY OF RESULTS

The West Bank and Gaza continue to experience high unemployment, which contributes
to the marginalization of their citizens. For 2009, the Palestinian Central Bureau for
Statistics reported a 17.8 percent unemployment rate for the West Bank and
38.6 percent for the Gaza Strip. Unemployment was concentrated among youth aged
15–24, for whom the rate was 38.9 percent, followed by people aged 25–34 with a rate
of 24.9 percent. At the same time, USAID/West Bank and Gaza reports that
municipalities urgently need rehabilitation of basic infrastructure, including utilities
supplying water and electricity, schools, roads, and agricultural production facilities.

To provide temporary relief for thousands of families in at least 100 communities in the
West Bank and Gaza, USAID/West Bank and Gaza developed the Emergency Jobs
Program, which creates jobs through small-scale infrastructure projects. These projects
have included construction and rehabilitation of retaining walls, roads, and sidewalks;
community, women’s, and youth centers; health-care facilities; kindergartens and
schools; and playgrounds and parks. They aim to infuse needed capital into local
economies and help move the West Bank and Gaza toward improved quality of life and
sustained economic growth.

To implement the program, the mission signed a 3-year, $20 million cooperative
agreement with CHF International (CHF) effective from September 29, 2007, to
September 30, 2010. On September 29, 2009, the mission increased the budget to
$34 million. On June 24, 2010, the mission approved a no-cost extension postponing
the project completion date from September 30, 2010, to January 31, 2011. The
agreement requires CHF to complete 200 small infrastructure projects throughout the
West Bank and Gaza. As of June 30, 2010, USAID/West Bank and Gaza had obligated
$34 million and expended $21.9 million under the Emergency Jobs Program.

The infrastructure projects under the Emergency Jobs Program have three
classifications, as follows:

	 Community-driven projects identified by CHF in collaboration with local governmental
   units and other local stakeholders.

	 Projects supporting other USAID projects and programs, such as vocational training
   and education.

	 Emergency response projects identified by USAID/West Bank and Gaza.

The map on the following page shows the project sites in the West Bank. 1     F




1
  Of the total 225 planned projects, only one small rubble removal project was executed in Gaza;
thus, Gaza is not included in the map.


                                                                                              1
        Source: USAID/West Bank and Gaza


The Regional Inspector General/Cairo conducted this audit to answer the following
question: Is USAID/West Bank and Gaza’s Emergency Jobs Program achieving its main
goal of providing short-term employment opportunities to Palestinians?

USAID/West Bank and Gaza’s Emergency Jobs Program has achieved its main goal to
provide short-term employment opportunities to Palestinians in terms of the number of
persons employed, as shown in Table 1, but did not meet its FY 2009 target for number
of person-days of employment generated.




                                                                                   2
         Table 1. Three Program Indicators and Their Short- and Long-Term 

                      Targets and Results as of July 11, 2010 


                                                 Result         Cumulative                      Result
                           FY 2009
        Indicator                     Result     as % of         Program           Result       as % of
                            Target
                                                 Target           Target                        Target
 Number of persons
                             1,100       4,215     383             8,142             8,864            109
 employed

 Number of beneficiaries   400,000     561,992     140          1,500,000         1,434,797            96
 Number of person-days 

 of employment             150,000     111,941      75           290,000           276,521            
 95
 generated


Still, CHF was on track to exceed the cumulative program goal of 290,000 employment
days.

As of July 11, 2010, CHF had completed 134 infrastructure projects and was on target to
complete the required number of projects by the end of the program on January 31,
2011. In fact, CHF had identified 225 projects to be implemented (Table 2).

   Table 2. Infrastructure Projects Supported by the Emergency Jobs Program,
                       by Type and Status as of July 11, 2010

          Project Type               Completed      Ongoing            Planned                Total
Community and charitable
                                           5               7                 0                  12
centers
Cultural renovation/ tourism               1                4                0                   5
Health facilities                         11                0                0                  11
Kindergartens                              4                3                0                   7
Playgrounds and parks                      6                0                1                   7
Retaining walls/ sidewalks/road
                                          49               23                6                  78
works
Rubble removal                             1                0                0                   1
Schools                                   41               34                1                  76
Women's centers                            6                1                0                   7
Youth centers                              9                7                2                  18
Combination of project types               1                2                0                   3
   Total                                 134               81                10                225

Moreover, the program achieved more than quantitative successes.                              It helped
subcontractors improve their technical skills, trained engineers who                         supervised
construction activities, met the needs of beneficiary communities, and                       used local
materials. CHF also implemented an effective branding strategy that raised                   community
awareness of the U.S. Government’s funding of the infrastructure projects.

Detailed findings appear in the following section. The audit’s scope and methodology
are described in Appendix I, and the mission’s comments are included in Appendix II.




                                                                                                         3
AUDIT FINDINGS
USAID/West Bank and Gaza’s Emergency Jobs Program was on track to exceed its
target to conduct 200 infrastructure activities by January 31, 2011. Besides number of
infrastructure projects, the mission used six indicators to measure progress on the
program; this audit focused on three of the indicators.2 The result on one, number of
person-days of employment generated, fell short of the target for FY 2009.

Three developments contributed to the shortfall in the number of person-days of
employment generated for FY 2009:

	 Because of a shift in the political situation, projects planned for Gaza were not
   implemented.

	 A contractors union strike delayed local construction firms’ bids on projects.

	 USAID/West Bank and Gaza unexpectedly recommended projects for FY 2009 that
   were not labor-intensive.

The first two developments were beyond USAID/West Bank and Gaza’s control. When
the mission amended its agreement with CHF in September 2009 to provide an
additional $14 million to the project, $12 million—or more than 40 percent of the $34
million in total program funds—was intended for projects in Gaza. During the first 2
years of the program, CHF implemented only one small rubble removal project valued at
$15,709 in Gaza. Because of the ongoing security and political situation in Gaza.3 CHF
could not conduct any additional projects there. Consequently, in April 2010, the
mission approved the use of the Gaza funds for projects in the West Bank.

A second development that contributed to CHF’s inability to conduct projects in the West
Bank was a contractors union strike that occurred from December 2007 through April
2008, just as CHF was tendering the first infrastructure projects for bids from
construction firms in the West Bank. As a result of the strike, construction firms were
delayed in bidding on the projects, in turn delaying the beginning of construction
activities. Although the cooperative agreement was signed at the end of September
2007, construction firms with which CHF had signed subcontracts started only seven
projects before the end of April 2008.

The third development that affected the attainment of the targeted number of
employment days generated was the unexpected inclusion of some projects
recommended by USAID/West Bank and Gaza for FY 2009 in support of other USAID
projects and programs. These projects were not as labor-intensive as other types of
projects, generating fewer person-days of work.       These projects included the
construction of schools and youth clubs, which, because of safety standards, required


2
  The three indicators audited were number of persons employed, total number of beneficiaries, 

and number of person-days of employment generated.

3
  The Islamic Resistance Movement (HAMAS) seized control of Gaza in a military-style coup in 

June 2007. HAMAS has been designated as a terrorist organization by the U.S. Government. 




                                                                                             4
less labor-intensive methods of construction, 4 such as machine mixing of concrete for
                                                  F




building columns and roofs. To address this shortfall, CHF has proposed more labor-
intensive projects for FY 2010, such as the construction of retaining walls (pictured
below) and sidewalks.

Having revised the mix of projects planned for FY 2010, USAID/West Bank and Gaza
was on schedule to exceed the number of planned projects and the target of 290,000
person-days of employment generated. Since corrective action has already been taken,
we make no recommendation to address the FY 2009 shortfall in person-days of
employment generated.




This gabion wall constructed under the Emergency Jobs Program prevents flooding and
landslides in Ein Shibly in the Nablus Governorate. This labor-intensive method of
construction creates jobs. (Photo by the Office of Inspector General, June 2010)

The Emergency Jobs Program achieved more than quantitative successes.
USAID/West Bank and Gaza ensured that the infrastructure projects undertaken were
consistent with the mission’s overall goals. USAID identified many of the projects to
complement other USAID activities in the West Bank. CHF identified the other projects
in collaboration with local communities. This approach led to community buy-in of the
planned projects. Another aspect of each project was to develop a sustainability plan for


4
 Safety standards for constructing roofs and building columns require that the concrete must be
poured quickly so that the entire structure will dry at one time. Building a roof or column slowly
using hand-mixed cement can result in structural problems in the construction.


                                                                                                5
each of the projects to ensure commitment and interest from communities in maintaining
infrastructure over the long term.

Other achievements are discussed below.

Qualitative Achievements
   Projects Have Benefited High-Needs Communities. The cooperative agreement
    that USAID/West Bank and Gaza signed with CHF made CHF responsible for
    ensuring that the infrastructure projects are carried out where assistance is needed
    most urgently based on the level of unemployment, food insecurity, 5 access to basic
                                                                              F   F




    services, and donor support in each community.

    To ensure that infrastructure activities were implemented in the neediest
    communities, CHF conducted needs assessments using the criteria mentioned
    above and also deployed teams to the areas identified to confirm the needs of those
    communities. Having identified the target communities, CHF met with local leaders
    to determine which projects were most needed in each community.

	 CHF Trained and Used Engineering Fellows on Projects. CHF provided close
   supervision of all infrastructure projects being implemented under the Emergency
   Jobs Program to ensure a high level of construction quality. CHF site engineers
   were assigned to each construction project to provide direct oversight of the
   construction. Engineers trained by CHF through the Engineering Fellows Program
   often served as site engineers. The Engineering Fellows Program, which was also
   implemented under the Emergency Jobs Program, was a program to employ fully
   credentialed, recent engineering graduates with 1 to 2 years of engineering
   experience to provide site supervision and monitor contractor compliance. CHF
   reported that as of March 2010, 57 engineering fellows had already been trained and
   that, by program completion, a total of 117 fellows will have graduated. These
   engineering fellows are housed in CHF’s regional offices in Nablus, Ramallah, and
   Hebron, which were established to provide more hands-on monitoring in all three
   regions of the West Bank. The cooperative agreement required at least 25 percent
   female participation in the Engineering Fellows Program; the program far exceeded
   this requirement, with women accounting for 80 percent of trainees.

    The regional offices also provide for monitoring of the quality of the data reported
    under the program. The site engineers interviewed indicated that they verified the
    data recorded daily by the contractors on the number of person-days of employment
    generated and the number of persons employed. These data were also checked
    biweekly by the regional coordinators. CHF provides a detailed biweekly report to
    USAID/West Bank and Gaza on the status of each active infrastructure project as
    well as a detailed spreadsheet showing overall program implementation status.



5
 Food insecurity is characterized by a lack of food security, or universal “physical and economic
access to sufficient food to meet . . . dietary needs for a productive and healthy life” (Food and
Nutrition Technical Assistance Project, Food Security Indicators and Framework for Use in the
Monitoring and Evaluation of Food Aid Programs, January 1999).



                                                                                                6
	 Hiring Mandates and Minimum Salaries Have Benefited Local Workers. The
   mission’s Emergency Jobs Program also established standards to ensure that local
   workers benefited from the program’s activities. The agreement mandated the hiring
   of workers from the communities where the projects are implemented and
   established minimum salaries for both skilled and unskilled workers. CHF ensured
   compliance with these requirements by including them in its subcontracts with
   construction firms. Interviews with local officials, construction firm supervisors, and
   construction workers indicated that local workers were hired whenever possible, and
   the workers considered their wages satisfactory.

As a direct result of the efforts of USAID/West Bank and Gaza and CHF, the
infrastructure projects implemented under the Emergency Jobs Program have met the
needs of the communities that the projects were designed to benefit. The community
officials and beneficiaries interviewed expressed their satisfaction with the construction
projects’ quality and usefulness. Construction workers also expressed their appreciation
for the opportunity to participate in the program.

Indirect Benefits
Several indirect economic benefits of the program have accrued to the communities in
the West Bank. These benefits include permanent job creation, enhanced capabilities of
local construction firms, and the use of local construction materials as discussed below.

	 Permanent Job Creation. USAID/West Bank and Gaza reported that as a result of
   the Emergency Jobs Program, 150 permanent jobs were created, including
   additional jobs for teachers when more classrooms (like the one shown on the next
   page) were constructed.

	 Enhanced Capabilities of Local Construction Firms. Under this program CHF
   has worked with almost half of the approximately 400 licensed construction firms in
   the West Bank. Most contractors selected were small, local construction firms that
   gained expertise by working with CHF; with increased levels of expertise, they
   became eligible to bid on larger construction projects.

	 Use of Local Construction Materials. The subcontracts with the local construction
   firms have encouraged the use of locally produced construction materials, such as
   ceramic tiles and aluminum. Use of these materials has benefited the local
   economies and has also helped improve the quality of construction materials
   produced, because they must meet the high standards required under the program.




                                                                                        7
  Classroom constructed at Wadi Fukin school in the Bethlehem Governorate under the 

      Emergency Jobs Program. (Photo by Office of Inspector General, June 2010) 


Successful Branding
USAID’s branding policies are set forth in the Agency’s Automated Directives System
(ADS) Chapter 320, “Branding and Marking.” ADS 320.3.1 describes the purpose of a
branding strategy, which is to “ensure that our implementing partners communicate that
the assistance is from the American people.”

The branding message was effectively communicated under the Emergency Jobs
Program. All project sites visited had USAID signs featuring the USAID logo and
indicating that the funding was from the American people. Generally, CHF placed
temporary signs at construction sites and installed permanent stone plaques after
projects were completed. (See photo on the next page.)

USAID/West Bank and Gaza’s and CHF’s branding strategy was not limited to placing
signage at project sites:

	 The USAID/West Bank and Gaza Mission Director and high-level Palestinian
   Authority officials often attended inauguration ceremonies.

	 Village councils’ public meetings, community Web sites and newsletters, and
   announcements made at mosques communicated the job program in the
   communities.


                                                                                        8
Emergency Jobs Program plaque stands alongside the Beit Ur Al Tahta sidewalk project in
   the Ramallah Governorate. (Photo by the Office of Inspector General, June 2010)


	 Events at schools and youth clubs provided venues for distributing USAID
   promotional hats and t-shirts.

	 Construction workers wore safety vests and hats bearing the USAID logo.

	 CHF prepared fact sheets in English and Arabic for each site to distribute to
   interested parties.

	 Press tours of construction sites promoted awareness of the project activities.

As a result of the branding efforts, residents of the communities visited had broad-based
knowledge of the USAID activities.            Beneficiaries, local leaders, construction
supervisors, construction workers, and the communities in general were aware of the
source of the funding for the infrastructure projects implemented under the Emergency
Jobs Program.




                                                                                       9
EVALUATION OF
MANAGEMENT COMMENTS
USAID/West Bank and Gaza provided its comments on the draft report on
September 28, 2010. In its comments, the mission expressed agreement with all of the
report’s contents and reiterated the mission’s commitment to meeting its overall program
target of 290,000 person-days of employment generated.

Because our report contained no recommendations, no additional action is required by
USAID/West Bank and Gaza to address the findings of this audit report.




                                                                                     10
                                                                               APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Cairo (RIG/Cairo) conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions. The purpose of this audit was to determine whether
USAID/West Bank and Gaza’s Emergency Jobs Program is achieving its main goal of
providing short-term employment opportunities to Palestinians. No previous audits
addressed the areas reviewed.

The scope of the audit covered reported results for fiscal year 2009. The Regional
Inspector General/Cairo performed this audit at USAID/West Bank and Gaza and the
Ramallah office of its implementing partner, CHF, from June 9 to July 19, 2010. We also
conducted site visits to 28 Emergency Jobs Program infrastructure project sites throughout
the West Bank. These sites represented 28 of the 40 projects in our random sample and
constituted all the projects that had been recorded as “started” on the April 14, 2010,
project status tracking sheet, which was used as a basis of our sample selection. The other
12 of 40 projects in our sample were either not started or had been cancelled, with the
exception of the Anin retaining wall project, which could not be visited because of security
concerns on the day of our scheduled visit.

During our site visits, we relied on CHF staff as translators to conduct interviews in Arabic
with local officials and beneficiaries as well as construction subcontractors and workers.
Additionally, we relied on USAID/West Bank and Gaza and CHF staff to translate source
documents that supported the reported indicator results.

As of June 30, 2010, $34 million had been obligated and $21.9 million had been
expended for the Emergency Jobs Program.

Methodology
To answer the audit objective, we first identified the program’s main goals and significant
program risks. We met with key personnel at USAID/West Bank and Gaza and CHF.
We reviewed relevant documentation provided by USAID/West Bank and Gaza and
CHF. We also reviewed the terms of the agreement and applicable policies and
procedures. We gained an understanding of the program design and of the method
USAID planned to use to monitor and measure the results.

We reviewed compliance by the mission and CHF with Executive Order 13224,
“Executive Order on Terrorist Financing,” and with USAID/West Bank and Gaza Mission
Order No. 21, “Anti-Terrorism Procedures.” Our antiterrorism compliance testing
included reviews of documentation such as USAID/West Bank and Gaza’s agreement
with CHF, subcontracts with construction firms, and records showing that USAID/West




                                                                                          11
Bank and Gaza had vetted municipalities and key personnel of subcontractors to ensure
that they met the antiterrorism criteria.

To verify reported results for the audited indicators, we selected a random sample of 40
projects from a universe of 198 Emergency Jobs Program infrastructure projects that had
been identified as of April 14, 2010. This sample size provides 90 percent confidence that
our conclusions regarding the universe based on our sample items are correct. This
confidence level was based on a tolerable error rate of 5 percent and an assumption of 4
percent variation. To verify compliance with antiterrorism requirements, we used discovery
sampling and selected a random sample of 58 projects from the universe of 198 projects.
This sample size provides 95 percent confidence that our conclusions regarding the
universe based on our sample are correct.

We traced reported results for the random sample of projects to the relevant source
documents (time sheets and beneficiary letters) to verify the number of beneficiaries,
number of people employed, and person-days of employment generated.

We verified that the cumulative totals for the three audited indicators matched in
USAID/West Bank and Gaza’s reporting system and CHF’s biweekly tracking sheet from
October 2009, which reported the cumulative results through the end of FY 2009.
Because these two sources agreed and we were able to verify the overall accuracy of
the CHF biweekly tracking sheet by reviewing a sample of supporting documentation, we
consider the FY 2009 results accurate.

During site visits we verified the accuracy of the reported project status, verified that the
project site complied with USAID branding requirements, and observed and discussed
the quality of the construction. We interviewed local officials to determine whether the
infrastructure projects were meeting the needs of the community and being used for their
intended purposes. We also ascertained whether local officials, beneficiaries, and
construction workers were aware of the source of funding for the projects.




                                                                                          12
                                                                            APPENDIX II 




MANAGEMENT COMMENTS




DATE:          September 28, 2010

TO:            Jacqueline Bell, Regional Inspector General, Cairo

FROM:          Michael T. Harvey, Mission Director, USAID West Bank and Gaza /s/

THROUGH:      Sherry F. Carlin, Deputy Mission Director /s/

SUBJECT:      Comments on Draft Performance Audit Report of USAID West Bank and
              Gaza’s Emergency Jobs Program

Reference:     Bell/Sumka memorandum dated May 17, 2010


USAID West Bank and Gaza wishes to thank the Regional Inspector General/Cairo for
conducting the audit on the Emergency Jobs Program. The subject audit report has
been reviewed by the technical office implementing the Emergency Jobs Program in
collaboration with other members of the Mission, and is in agreement with all of its
contents.

The overall nature of the audit and the ensuing report is comprehensive and we
appreciate the thoroughness with which RIG/Cairo addressed the question of whether
the Mission is achieving its main goal of providing short-term employment opportunities
to Palestinians. We concur with the audit conclusion that, USAID/West Bank and
Gaza’s Emergency Jobs Program was on track to exceed its target to conduct 200
infrastructure activities by January 31, 2011.

While the audit report does not include any findings or recommendations, or identify any
significant problem areas, it mentioned the Emergency Jobs Program falling short of
meeting its targeted number of person-days of employment generated in FY 2009. As
stated in the audit report, the Mission and the Recipient have taken corrective action and
revised the work-plan and the mix of projects for FY 2010 to increase the emphasis on
job creation which put the Mission and the Recipient on track to exceed the targeted
number of 290,000 person-days of employment generated. In addition, the Mission is
continually monitoring implemented activities to ensure that the Emergency Jobs
Program meets the needs of the intended communities.




                                                                                    13 

U.S. Agency for International Development 

        Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
